BECKER GALLAGHER
Briefs

and

DoNNA
JULIE

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief Amicus Curiae of
Immigration Law Reform Institute in Support of
Petitioner in 19-67, United States ofAmerica v. Evelyn
Sineneng-Smith, were sent via Three Day Service and
e-mail to the U.S. Supreme Court, and 3 copies were
sent via Three Day Service and e-mail to the following
parties listed below, this 9th day of December, 2019:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioner
Mark Christopher Fleming
Wilmer Hale
60 State Street
Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhale.com
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

J. WOLF, J.D.
KERSHNER, J.D.

LAWRENCE J. JOSEPH
Counsel of Record
1250 Connecticut Av NW
Suite 700-lA
Washington, DC 20036
(202) 355-9452
lj@larryjoseph.com
CHRISTOPHER J. HAJEC
IMMIGRATION REFORM LAW INSTITUTE

25 Massachusetts Av NW
Suite 335
Washington, DC 20001
(202) 232-5590
chaj ec@irIi. org

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 9, 2019.

DonnaJ. Wo
Becker Gallagher Leg Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

©~

Notary Pub~
[seal]

Q

